Aud
  dit Rep
        port




OIG-11--085
SAFETY
     Y AND SOU
             UNDNESS:: In-Depth Review of Waterfield
                                                   d Bank
July 14
      4, 2011




Office of
   pectorr General
Insp
Department of the Treasu
                       ury
Contents



Memorandum for the Acting Director


Section I   Moss Adams Report on the In-Depth Review of Waterfield


Section II Report Distribution
This page intentionally left blank.
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GE NE RAL
                                                July 14, 2011



             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR

             FROM:                  Michael Maloney /s/
                                    Director, Fiscal Service

             SUBJECT:               In-Depth Review of Waterfield Bank


             INTRODUCTION

             The Office of Thrift Supervision (OTS) closed Waterfield Bank (Waterfield),
             Germantown, Maryland, and appointed the Federal Deposit Insurance Corporation
             (FDIC) as receiver on March 5, 2009. As of May 31st, 2011, FDIC estimated that
             Waterfield’s loss to the Deposit Insurance Fund was $42.5 million.

             Pursuant to section 38(k) of the Federal Deposit Insurance Act, we contracted with
             Moss Adams LLP (Moss Adams), an independent certified public accounting firm,
             to perform an in-depth review of the failure of Waterfield. Moss Adams’s report
             dated July 5, 2011, is provided as Section I.

             It should be noted that Moss Adams initiated its work under the material loss
             review provision of section 38(k) which at the time of Waterfield’s failure defined a
             loss to the Deposit Insurance Fund as material if the loss exceeded the greater of
             $25 million or 2 percent of the institution’s total assets. That provision also
             required that our office conduct a review into the causes of the failure and the
             supervision exercised over the institution. Effective July 21, 2010, section 38(k)
             was amended by P.L. 111-203, also known as the Dodd-Frank Wall Street Reform
             and Consumer Protection Act. As a result, among other things, the loss threshold
             to the Deposit Insurance Fund triggering a required material loss review was reset
             as follows: losses that exceed $200 million for calendar years 2010 and 2011,
             $150 million for calendar years 2012 and 2013, and $50 million for calendar year
             2014 and thereafter (with a provision that the threshold can be raised temporarily
             to $75 million if certain conditions are met). As amended, section 38(k) provides
             that the cognizant Inspector General is to perform an in-depth review of failures
             under the material loss threshold if the Inspector General determines that unusual
             circumstances exist with respect to the failure. Because Moss Adams’s fieldwork
             was substantially finished when section 38(k) was amended, we determined that
Page 2

this was an unusual circumstance and therefore we directed Moss Adams to
complete its review of Waterfield as an in-depth review.

RESULTS OF IN-DEPTH REVIEW

We concur with Moss Adams’s report that indicated:

   •   Waterfield failed primarily because of (1) a significant decline in value and
       liquidity of their non-agency collateralized mortgage obligation securities
       (CMOs) and (2) the write-down of assets resulting from purchase accounting
       adjustments. Secondary causes of failure included (1) significant loan
       delinquencies and losses incurred on loans and (2) inadequate capital relative
       to the risk level of its CMOs, poor loan quality, and high overhead structure.
       Waterfield Bank became reliant on brokered deposits upon its purchase by
       Affinity Financial Corporation, Incorporated. Starting in January 2008,
       Waterfield Bank’s business plan was to rely almost exclusively on a related
       party to provide deposits. As the condition of the institution deteriorated,
       Waterfield Bank faced restrictions on its acceptance of brokered deposits and
       its access to federal borrowings became limited. These conditions
       collectively created a capital deficit and liquidity issue that prompted OTS to
       close the institution.

   •   OTS’s supervision of Waterfield Bank did not prevent a significant loss to the
       Deposit Insurance Fund. OTS identified concentrations in non-agency CMOs,
       valuation issues with their purchase accounting, and poor loan quality early
       on, but did not adequately address the associated risk.

Details of Moss Adams’s conclusions are in their report.

Moss Adams recommended in the report that OTS:

   •   appropriately curtails high-risk business strategies employed by insured
       institutions through appropriate formal supervisory enforcement actions.

   •   performs a more thorough evaluation of the financial condition and business
       plan of prospective acquirers, including following protocol for monitoring the
       execution of the business plan.

   •   ensures that thrifts comply with conditions stated in approval documents on
       an ongoing basis, including prompt follow-up if required submissions are not
       timely received. Additionally, OTS staff should be directed to review such
       submissions in a timely manner and take appropriate supervisory action
       when deviations or other problems are identified.
Page 3

   •   ensures that supervision of thrifts is not adversely impacted by the
       assignment of personnel to internal failed bank reviews.

While we believe these recommendations are appropriate based on the findings and
conclusions by Moss Adams, it should be noted that pursuant to P.L. 111-203, the
functions of OTS will transfer to other federal banking agencies on July 21, 2011.
Additionally, OTS is to be abolished effective 90 days after the transfer date.

OBJECTIVES, SCOPE, AND METHODOLOGY

We contracted with Moss Adams to perform an in-depth review of Waterfield in
accordance with generally accepted government auditing standards. We evaluated
the nature, extent, and timing of the work; monitored progress throughout the
audit; reviewed the documentation of Moss Adams; met with partners and staff
members; evaluated the key judgments; met with OTS officials; reviewed OTS
supervisory records; and performed other procedures we deemed appropriate in the
circumstances. We conducted our work in accordance with generally accepted
government auditing standards.

Section II identifies the recipients of this report. Should you wish to discuss the
report, you may contact me at (202) 927-6512.
This page intentionally left blank.
            Section I

 Moss Adams LLP’s Report on the
In-Depth Review of Waterfield Bank
This page intentionally left blank.
             Waterfield Bank
            In-Depth Review
Safety and Soundness Performance Audit
              July 5, 2011
This page intentionally left blank.
Waterfield Bank
In-Depth Review
Safety and Soundness
Performance Audit
July 5, 2011
Contents

Moss Adams LLP Audit Report ......................................................................... 1
    Results in Brief ....................................................................................................................... 2

    Causes of Waterfield Bank’s Failure ...................................................................................... 4
          High Concentration in Non-Agency Collateralized Mortgage
              Obligation Securities ........................................................................................... 4
          Late Recording of Purchase Accounting Adjustments .............................................. 5
          Poor Credit Quality and Contingent Liability from Mortgage
              Banking Operations............................................................................................. 5
          High Overhead Costs and Significant Losses ............................................................ 6
          Poor Financial Condition of Affinity and its Wholly Owned Subsidiaries,
              WFS and WTI...................................................................................................... 6
          High-Risk Business Plan and Unstable Funding Structure ........................................ 7
          Inadequate Capital levels ........................................................................................... 8

    OTS’s Supervision of Waterfield Bank ................................................................................... 9
          OTS Did Not Take Forceful and Timely Actions to Address
              Unsafe Concentrations in Non-Agency Collateralized Mortgage
              Obligation Securities ......................................................................................... 11
          OTS Actions Were Not Consistent With Waterfield Bank’s Risk Profile .................. 12
          OTS Did Not Timely Address Waterfield Bank’s Purchase Accounting
              Issues ................................................................................................................ 12
          OTS Did Not Take Supervisory Action Against Waterfield Bank
              in a Timely Manner............................................................................................ 13
          OTS Did Not Perform a Thorough Evaluation of the Acquisition by Affinity ............. 14
          OTS Implemented Prompt Corrective Action In Accordance
              with Requirements ............................................................................................ 16

    OTS Failed Thrift Institutions Review................................................................................... 18

    Recommendations ............................................................................................................... 20

Appendices
    Appendix 1:               Objectives, Scope, and Methodology ...................................................... 21
    Appendix 2:               Background.............................................................................................. 23
    Appendix 3:               Glossary of Terms ................................................................................... 29

Management Response
    Management Response ....................................................................................................... 34




                              In-Depth Review of Waterfield Bank                                                                      Page i
Abbreviations
ALLL      allowance for loan and lease losses
ASC       Accounting Standards Codification
CCR       Consolidated Capital Requirement
C&D       cease and desist order
C.F.R.    Code of Federal Regulations
CMOs      collateralized mortgage obligation securities
DRR       Division of Resolutions and Receiverships
FDIC      Federal Deposit Insurance Corporation
FHLB      Federal Home Loan Bank
FRB       Federal Reserve Board
GAAP      generally accepted accounting principles
MRBA      matters requiring board attention
OTS       Office of Thrift Supervision
OTTI      other-than-temporary impairment
PCA       prompt corrective action
ROE       report of examination
SNL       SNL Financial LC
U.S.C.    United States Code
TFR       Thrift Financial Report




          In-Depth Review of Waterfield Bank (OIG-11-085)   Page ii
Inspector General
Department of the Treasury

RE: Transmittal of Results for the In-Depth Review Report for
Waterfield Bank, Germantown, Maryland

This letter is to acknowledge delivery of our performance audit report on the
in-depth review for Waterfield Bank. The objectives of this performance audit
were to (1) determine the causes of Waterfield Bank’s failure and resulting
loss to the Deposit Insurance Fund and (2) assess the Office of Thrift
Supervision’s (OTS) supervision of Waterfield Bank, including
implementation of the Prompt Corrective Action (PCA) provisions of section
38 of the Federal Deposit Insurance Act.

The information included in this report was obtained during our fieldwork,
which occurred during the period from June 1, 2010, through June 18, 2010.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

We also included several appendices to this report. Appendix 1 contains a
more detailed description of our in-depth review objectives, scope, and
methodology. Appendix 2 contains background information on Waterfield
Bank’s history and OTS’s supervision process. Appendix 3 provides a
glossary of terms used in the report. The terms defined in the glossary are
underlined the first time they are used in the report. Appendix 4 provides
OTS’s comments regarding the report’s recommendations.



Everett, Washington
July 5, 2011




In-Depth Review of Waterfield Bank                                   Page 1
Results in Brief
              At March 5, 2010, the organization of related entities of Waterfield Bank was
              as follows:



                                                     Affinity Financial
                                                     Corporation, Inc.
                                                          (Affinity)
                                                   (OTS-regulated holding
                                                         company)



                 Waterfield Financial                  Waterfield Bank                 Waterfield
                   Services (WFS)                  (wholly owned subsidiary     Technologies, Inc. (WTI)
               (wholly owned subsidiary             of Affinity; regulated by   (wholly owned subsidiary
                       of Affinity)                            OTS)                     of Affinity)




              Waterfield Bank was originally capitalized with $11 million in June 2000 and
              was named Assurance Partners Bank. Assurance Partners Bank was unable
              to reach profitability and in April 2005, Federal City Bancorp, Inc., infused $8
              million in capital into Assurance Partners Bank and changed the name to
              American Partners Bank. American Partners Bank was unable to achieve
              profitability and on January 16, 2008, Affinity infused $20 million in capital
              and changed the name to Waterfield Bank, which later failed on March 5,
              2010. The Federal Deposit Insurance Corporation (FDIC) estimated that the
              loss to the Deposit Insurance Fund from Waterfield Bank’s failure was $42.5
              million.

              Waterfield Bank failed primarily because of (1) a significant decline in value
              and liquidity of their non-agency collateralized mortgage obligation securities
              (CMOs) and (2) the write-down of assets resulting from purchase accounting
              adjustments. Secondary causes of failure included (1) significant loan
              delinquencies and losses incurred on loans and (2) inadequate capital
              relative to the risk level of its CMOs, poor loan quality, and high overhead
              structure. Waterfield Bank became reliant on brokered deposits upon its
              purchase by Affinity. Starting in January 2008, Waterfield Bank’s business
              plan was to rely almost exclusively on Waterfield Financial Services (WFS
              and a related party) to provide deposits. As the condition of the institution
              deteriorated, Waterfield Bank faced restrictions on its acceptance of
              brokered deposits and its access to federal borrowings became limited. The
              other-than-temporary impairment (OTTI) on non-agency CMOs, write-down
              of assets from purchase accounting adjustments, increase in nonperforming
              loans, and continued losses from a high overhead structure, combined with
              the institution’s inability to obtain reliable funding, created a capital deficit
              and liquidity issue that prompted OTS to close the institution.




              In-Depth Review of Waterfield Bank                                               Page 2
OTS’s supervision of Waterfield Bank did not prevent a significant loss to the
Deposit Insurance Fund. OTS identified concentrations in non-agency
CMOs, valuation issues with their purchase accounting, and poor loan
quality early on, but did not adequately address the associated risk. OTS
took enforcement action against the institution only after the non-agency
CMO concentrations became problematic. The purchase accounting
adjustments, which had a material impact on regulatory capital, were not
finalized and recorded until approximately two years after the acquisition by
Affinity. In addition, OTS reached a supervisory judgment on a matter in
2008 that was inconsistent with Waterfield Bank’s risk profile. Specifically,
OTS upgraded Waterfield Bank’s CAMELS composite rating from 4 to 3
based on the $20 million capital infusion by Affinity and the new
management team brought on to run the institution. However, there were no
underlying changes in Waterfield Bank’s condition that warranted the
upgraded composite rating. Finally, OTS’s 2008 full scope examination of
Waterfield Bank took significantly longer than the typical examination of a
similar-sized institution. At the time of the 2008 examination, certain OTS
field personnel were assigned to internal failed bank reviews. This was in
addition to their normal workload, which contributed to their untimely
completion of the examination.

In accordance with its policy, OTS conducted an internal failed bank review
of Waterfield Bank and determined that the thrift’s failure was primarily
caused by a significant concentration of non-agency CMOs that incurred
considerable deterioration in value, which directly contributed to Waterfield
Bank’s negative capital position and failure. In its review, OTS also
concluded that the heavy general and administrative expenses Waterfield
Bank incurred building an infrastructure to support projected growth, as well
as the reduction in value associated with the acquired held-to-maturity loan
portfolio, which necessitated a decrease in equity capital, contributed to
Waterfield Bank’s failure. The review identified areas of weakness in OTS’s
supervision of Waterfield Bank related to eligibility examinations and
approval applications for potential savings and loan holding companies. Our
in-depth review affirmed OTS’s internal findings and the need for corrective
action.

We are recommending that OTS (1) appropriately curtails high-risk business
strategies employed by insured institutions through appropriate formal
supervisory enforcement actions; (2) performs a more thorough evaluation
of the financial condition and business plan of prospective acquirers,
including following protocol for monitoring the execution of the business
plan; (3) ensures that thrifts comply with conditions stated in approval
documents on an ongoing basis, including prompt follow-up if required
submissions are not timely received. Additionally, OTS staff should be
directed to review such submissions in a timely manner and take appropriate
supervisory action when deviations or other problems are identified; and (4)
ensures that supervision of thrifts is not adversely impacted by the
assignment of personnel to internal failed bank reviews.



In-Depth Review of Waterfield Bank                                    Page 3
Causes of Waterfield Bank’s Failure
             Waterfield Bank failed because of a significant decline in value and liquidity
             of its non-agency CMOs that resulted in a $7.9 million OTTI charge to
             income in December 2009 and a write-down of $7.7 million in assets in
             December 2009, resulting from purchase accounting adjustments recorded
             after its acquisition by Affinity. Secondary causes of Waterfield Bank’s failure
             were poor asset quality and high overhead costs, which resulted in operating
             losses. These factors, combined with Waterfield Bank’s inability to obtain
             reliable funding sources, created a capital deficit and liquidity issue that
             prompted OTS to close the institution on March 5, 2010.

             High Concentration in Non-Agency Collateralized Mortgage Obligation
             Securities

             OTS defines a concentration as a group of similar types of assets or
             liabilities that, when aggregated, exceeds 25 percent of an institution’s core
             capital plus allowance for loan and lease losses (ALLL). Concentrations
             pose risk to an institution because negative events affecting overly
             concentrated groups of assets can have a highly detrimental impact on the
             institution. Waterfield Bank maintained high concentrations of non-agency
             CMOs in its investment portfolio.

             Waterfield Bank was recapitalized on January 16, 2008, with a $20 million
             capital infusion by Affinity, and had total assets at the time of $160 million.
             Shortly thereafter, management leveraged Waterfield Bank’s balance sheet
             by investing in AAA-rated non-agency CMOs, building the portfolio to more
             than $121.1 million by June 30, 2008. The AAA non-agency CMOs portfolio
             peaked at September 30, 2008, at $125 million, or 800 percent of total
             capital. The AAA non-agency CMO portfolio was funded by what was later
             determined to be brokered deposits from WFS, a related party. In the latter
             half of 2008, the non-agency CMO market declined, resulting in an illiquid
             market and significant unrealized losses.

             By December 31, 2008, the unrealized loss on non-agency CMOs, net of
             tax, was approximately $16.7 million. This unrealized loss represented 84
             percent of the $20 million of initial capital infused into Waterfield Bank.
             Management was unable to liquidate the investments due to both the illiquid
             market for non-agency CMOs and the accounting and regulatory capital
             implications. Ultimately, in the fourth quarter of 2009, Waterfield Bank
             concluded that it could no longer continue to carry the value of the non-
             agency CMOs at amortized cost, and, therefore, had to record an OTTI
             write-down of $7.9 million. This charge in the fourth quarter of 2009
             contributed to the significant decline in capital, resulting in Waterfield Bank
             being critically undercapitalized.




             In-Depth Review of Waterfield Bank                                     Page 4
                            Late Recording of Purchase Accounting Adjustments

                            The acquisition of American Partners Bank by Affinity and the subsequent
                            name change to Waterfield Bank occurred on January 16, 2008. The final
                            purchase accounting adjustments 1 resulting from the acquisition were not
                            recorded by Waterfield Bank until December 2009. Recording the final
                            purchase accounting adjustments reduced income by $7.7 million and had a
                            material impact on Waterfield Bank’s equity and regulatory capital.

                            Waterfield Bank’s tier 1 leverage ratio was 10 percent at March 31, 2008,
                            shortly after the acquisition on January 16, 2008, and later fell to negative
                            5.16 percent at December 31, 2009. The significant decline in Waterfield
                            Bank’s ratio in the fourth quarter of 2009 reflects the impact of the OTTI on
                            the non-agency CMOs, recording of the purchase accounting adjustments,
                            provision for loan losses, and high operating expenses.

                            Had the $7.7 million of purchase accounting adjustments been recorded
                            timely, Waterfield Bank would have fallen below well capitalized for the
                            quarters ended June 30, 2008 (adequately capitalized), September 30, 2008
                            (adequately capitalized), and December 31, 2008 (undercapitalized).

                            Poor Credit Quality and Contingent Liability from Mortgage Banking
                            Operations

                            At December 31, 2009, 10.45 percent of Waterfield Bank’s loans were
                            classified as nonperforming, an increase from 1.66 percent at December 31,
                            2007. The provision for loan losses for the year ended December 31, 2009,
                            was $2.9 million, compared to $1.3 million for 2008 and $427,000 for 2007.
                            The credit quality problems were primarily caused from mortgage banking
                            operations. American Partners Bank—and, subsequently, Waterfield Bank—
                            originated and sold into the secondary market prime and subprime mortgage
                            loans. During 2008, over $1 billion of loans were originated and sold into the
                            secondary market. A number of loans originated and placed into Waterfield
                            Bank’s single-family portfolio did not meet the underwriting guidelines
                            established by board-approved policies, including mortgage banking
                            originations rejected by investors. These underwriting problems resulted in a
                            material amount of un-saleable loans, and many of those sold were required
                            by investors to be repurchased by Waterfield Bank. The mortgage banking
                            loan problems contributed significantly to the elevated nonperforming loan to
                            total loan ratios throughout 2008 and 2009.

                            Waterfield Bank’s capital was also at risk for an ongoing contingency related
                            to earlier sales to the secondary market due to asserted fraudulent
                            underwriting or misrepresentation for loans originated in 2006, 2007, and
                            2008. Secondary market sales were significant through 2009. In 2009, due

1 Under purchase accounting (Accounting Standards Codification topic 805 (ASC 805), Business Combinations), when

an entity is purchased, its assets and liabilities are marked to fair value and recorded as such on the purchaser’s
financial statements. The excess of the total acquisition cost over the sum of the fair values of the assets acquired, less
liabilities assumed, is recorded as goodwill. Any resulting goodwill is deducted from equity capital to arrive at regulatory
capital.
                            In-Depth Review of Waterfield Bank                                                     Page 5
to ongoing repurchases of mortgage loans sold to Countrywide Home Loan,
Inc. and its successor, Bank of America, management entered into an
indemnification agreement whereby Bank of America would discontinue
requesting that Waterfield Bank repurchase loans previously sold. The net
cost to Waterfield Bank for the indemnification was $1 million.

High Overhead Costs and Significant Losses

Waterfield Bank was structurally unprofitable and posted only one quarter of
profitability during the five-year period ended December 31, 2009.
Management was slow to recognize and respond to the economic downturn
and its impact on Waterfield Bank’s mortgage banking operations. As of
December 31, 2008, Waterfield Bank continued to have operations spread
over the United States, with its main office in California; an operations center
in Indiana; mortgage banking loan production offices in Washington, DC,
and Virginia; and bank offices in New Jersey, Florida, and Maryland. For the
years ended December 31, 2009 and 2008, noninterest expense totaled
$18.9 million and $14.5 million, respectively. The majority of these expenses
consisted of compensation and benefits for employees and directors, as well
as occupancy expense. These high overhead costs (for the year ended
December 31, 2009, noninterest expense to average total assets was 4
percent), combined with limited earning assets and a decline in its mortgage
banking business, resulted in Waterfield Bank posting a net loss of $5.7
million for the year ended December 31, 2008, compared to projected net
income of $4.1 million based on its business plan, and a net loss of $18.5
million for 2009. Included in 2009’s $18.5 million net loss were charges of
$7.9 million related to OTTI on non-agency CMOs, $7.7 million related to
purchase accounting adjustments, and the $1 million indemnification
expense paid to Bank of America.

The continued operating losses caused Waterfield Bank’s PCA category to
fall below adequately capitalized, with a total risk-based capital of 7.64
percent at September 30, 2009.

Poor Financial Condition of Affinity and its Wholly Owned Subsidiaries,
WFS and WTI

Affinity, WFS, and WTI provided no financial support to Waterfield Bank, nor
were they a source of strength. Figure 1 shows the losses from operations of
the entities for 2009 and 2008.




In-Depth Review of Waterfield Bank                                     Page 6
Figure 1. Net losses of Affinity, WFS, and WTI for the years ended 2009
and 2008.

                                                                  2009              2008
                                                                 Net Loss          Net Loss

 Affinity Financial Corporation, Inc.                        $ (2,669,578)     $ (1,980,309)

 Waterfield Financial Servcies, Inc.                         $ (1,558,211)     $ (4,722,488)

 Waterfield Technologies, Inc.                               $       (9,955)   $     (868,745)
Source: Respective entities’ internal financial statements


At December 31, 2007, immediately prior to Affinity’s acquisition of the
institution, Affinity’s audited consolidated financial statements reflected a
stockholders’ deficit of $1 million and total assets of $4.8 million. The
financial condition of Affinity, WFS, and WTI contributed to a 2009 dispute
over intercompany receivables and payables. At the conclusion of the
dispute in 2009, Waterfield Bank wrote off approximately $1 million of
receivables due from Affinity, WFS, and WTI as a result of the poor financial
condition of the entities and disagreements over charges.

High-Risk Business Plan and Unstable Funding Structure

Waterfield Bank’s original business plan, dated February 2007, called for
rapid asset growth, with projected assets growing from $155 million at
acquisition (January 2008) to $2.2 billion by the end of year three. The
growth was to be supported by an initial capital infusion of $75 million from
Affinity; ongoing capital infusions from Affinity by reinvesting earnings from
its wholly owned subsidiaries, WFS and WTI; and WFS providing deposits
as the primary funding source. Affinity submitted a revised business plan
dated November 2007 to OTS but still focused on rapid asset growth, with
assets projected to grow from $172 million at acquisition to $1.2 billion by
the end of year three. The capital infusion was $20 million, with $8.5 million
borrowed by Affinity through a bridge loan. Payment of the bridge loan was
to be from the sale of additional stock, which ultimately never occurred, nor
did the additional capital infusions from Affinity.

Waterfield Bank did not adjust its cost structure to reflect the $55 million
reduction in the actual capital infusion (from the $75 million planned to $20
million actually infused) and Affinity’s inability to infuse additional capital.
Rather, management continued to run operations spread across the nation
and added loan production offices on the East Coast. This expensive
infrastructure resulted in excessive overhead costs well in excess of income
levels.

The business plan also called for a substantial reliance on deposits from
WFS as its primary funding source for growth. The deposit-gathering
agreement with WFS allowed Waterfield Bank to rapidly grow deposits from
$104 million at December 31, 2007, before the acquisition, to $215 million by
In-Depth Review of Waterfield Bank                                                     Page 7
June 30, 2008. During this time, management used the deposits to purchase
approximately $121.1 million of non-agency CMOs, which shortly thereafter
became illiquid and impaired, as noted earlier.

Inadequate Capital Levels

Although Waterfield Bank was considered well capitalized under PCA
requirements until June 30, 2009, when the institution fell to adequately-
capitalized, its capital levels were nevertheless inadequate because of its
exposure to non-agency CMOs and loans with higher levels of credit risk, as
well as the institution’s high-cost overhead structure. According to Section
120 of the OTS Examination Handbook, institutions that engage in higher-
risk activities require more capital, especially if the activities are conducted
at significant concentration levels.

Following the filing of the June 30, 2009, thrift financial report (TFR),
Waterfield Bank’s PCA status fell to adequately capitalized. OTS issued a
troubled condition letter that restricted the institution from accepting,
renewing, or rolling over any brokered deposits without prior written approval
from the FDIC. Waterfield Bank was unable to obtain stable funding sources
without the use of brokered deposits through WFS. Waterfield Bank’s high
concentrations in non-agency CMOs became illiquid and impaired; this,
combined with a write-down of assets resulting from purchase accounting
adjustments, poor asset quality, high overhead structure, and significant
operating losses, created a capital deficit and liquidity issue. Waterfield Bank
dropped to critically undercapitalized at December 31, 2009, and was closed
by OTS on March 5, 2010.




In-Depth Review of Waterfield Bank                                      Page 8
OTS’s Supervision of Waterfield Bank
                          OTS’s supervision of Waterfield Bank did not prevent a significant loss to the
                          Deposit Insurance Fund. OTS identified concentrations in non-agency CMOs
                          at the institution but did not adequately address the risk associated with
                          them. OTS prescribed corrective action to address Waterfield Bank’s high
                          concentrations in non-agency CMOs in December 2008, but only after those
                          non-agency CMOs became illiquid. In addition, OTS reached a supervisory
                          judgment on a matter in 2008 that was inconsistent with Waterfield Bank’s
                          rising risk profile. Specifically, OTS upgraded Waterfield Bank’s CAMELS
                          composite and component ratings from 4/445533 as of September 28, 2007,
                          to 3/232332 at January 30, 2008. The upgrade was based on a limited
                          examination mailed on January 30, 2008, after the infusion of $20 million in
                          capital from Affinity, which was raised, in part, by borrowing $8.5 million, and
                          by the new management team brought in to run the institution.

                          Figure 2 lists OTS’s full-scope safety and soundness and limited
                          examinations of Waterfield Bank from 2005 until the thrift’s failure and
                          provides information on the significant results of those examinations.
                          Generally, matters requiring board attention (MRBA) represent the most
                          significant items requiring corrective action found by examiners. Figure 2
                          also lists the informal and formal enforcement actions taken against
                          Waterfield Bank by OTS. 2




2
  OTS conducted its examinations and performed offsite monitoring of Waterfield Bank in accordance with the
timeframes prescribed in the OTS Examination Handbook, except as noted in this report.
                          In-Depth Review of Waterfield Bank                                                  Page 9
                  Figure 2. Summary of OTS’s Examinations and Enforcement Actions for
                  Waterfield Bank.
                                                                       Examination Results 3
                  Date started/                                                  Number of
                  completed/       Assets (in        CAMELS        Number of     corrective    Enforcement
                  mailed           millions)         Rating        MRBAs         actions       actions
                  3/29/2005
                  5/13/2005              $38           3/212421         3               -           None
                  6/22/2005
                  3/20/2006
                  4/21/2006              $78           2/222321         4               5           None
                  5/18/2006
                                                                                               OTS issues a
                  5/29/2007                                                                    troubled
                  10/10/2007             $147          4/445543         6               27     condition letter
                  11/09/2007                                                                   on 8/24/07.
                  9/28/2007
                  9/28/2007
                  9/28/2007              $138          4/445533          -              -           None
                  (Limited
                  exam)
                  1/30/2008
                  1/30/2008
                  1/30/2008              $127          3/232332          -              -           None
                  (Limited
                  exam)
                  6/9/2008
                  7/14/2008
                  8/13/2008              $185             N/A            -              -           None
                  (Limited
                  exam)
                                                                                               OTS issues a
                  12/8/2008                                                                    troubled
                  6/30/2009              $282          4/433444         4               22     condition letter
                  7/30/2009                                                                    on 7/30/09.

                                                                                               OTS issues a
                                                                                               cease and
                                                                                               desist order
                                                                                               on 10/1/09.
                  11/23/2009
                  1/8/2010
                  1/22/2010              $197           5/55455-         -              2           None
                  (Limited
                  exam)
                  2/1/2010
                  (Not
                  completed)             $197             N/A            -              -           None
                  (Limited exam)
                  2/22/2010
                  (Not                   $156             N/A            -              -           None
                  completed)




3
    Source: OTS Report of Examinations
                           In-Depth Review of Waterfield Bank                                      Page 10
                          OTS Did Not Take Forceful and Timely Actions to Address Unsafe
                          Concentrations in Non-Agency CMOs

                          During the second quarter of 2008, Waterfield Bank purchased $110 million
                          of non-agency CMOs, bringing the total to $121.1 million at June 30, 2008,
                          representing 651 percent of total equity capital. In the OTS limited
                          examination report 4 started on June 9, 2008, and mailed August 13, 2008,
                          OTS did not identify the significant concentration in non-agency CMOs, nor
                          did it identify the concentration from the June 30, 2008, TFR. As stated
                          earlier, OTS defines a concentration as a group of similar assets or liabilities
                          that, when aggregated, exceeds 25 percent of an institution’s risk-based
                          capital (core capital plus ALLL). As a result, there was no action to address
                          the concentration in non-agency CMOs until the market had deteriorated
                          significantly. OTS identified the non-agency CMO security concentrations in
                          its full-scope examination that commenced on December 8, 2008, and
                          mailed July 30, 2009. At December 31, 2008, the unrealized loss on the non-
                          agency CMOs, net of tax, was $16.7 million. Had OTS identified the
                          excessive concentration risk earlier, additional restrictions could have been
                          imposed. Based on discussions with OTS personnel, Affinity’s business plan
                          contemplated an investment mix that was more diversified than what was
                          actually purchased. In addition, had the quarterly variance reports been
                          provided by management to OTS as required by Condition 5 of the OTS
                          merger approval letter, the concentrations may have been identified and
                          remediated sooner. There was no indication that quarterly business plan
                          variance reports were requested by OTS between safety and soundness
                          examinations.

                          Waterfield Bank’s investment policy limited the purchase of individual
                          securities to less than 25 percent of tangible capital. Eight non-agency
                          CMOs purchased in 2008 exceeded this threshold, seven of which were
                          purchased prior to the August 13, 2008, mail date of the OTS limited
                          examination report.

                          The December 2008 report of examination (ROE) included OTS’s first
                          corrective action to address Waterfield Bank’s non-agency CMO
                          concentration levels. 5 OTS stated that management should prepare an
                          updated analysis each quarter assessing whether all or a portion of the
                          indicated impairment associated with the non-agency CMOs should be
                          treated as OTTI, and implement internal controls to ensure agency rating
                          changes were carried through to proper reporting of CMOs on the Schedule
                          Consolidated Capital Requirement (SCCR). However, OTS’s corrective
                          action did not require the institution to lower concentration levels; the
                          corrective action only required the institution to improve its monitoring of its
                          concentration and reporting of rating changes.

4 The purpose of the limited examination was for OTS to assess compliance with Waterfield Bank’s new business plan
approved in connection with the acquisition and management’s progress in addressing concerns from the last full-scope
examination mailed November 9, 2007.
5 Corrective actions are included in ROEs to address deficiencies and violations found during the examination. They are

communicated to the institution with the expectation that the problems they address will be corrected by the next
examination.
                          In-Depth Review of Waterfield Bank                                                 Page 11
Greater supervisory action prior to the ROE mailed July 30, 2009, was
warranted to address the institution’s concentrations in non-agency CMOs,
including requiring Waterfield Bank to lower its concentrations in non-agency
CMOs through an increase in capital levels.

During our interviews, various OTS examination staff acknowledged that
earlier supervisory action should have been taken to address the institution’s
concentrations in non-agency CMOs. They indicated that no action was
taken at the time of purchase because all the non-agency CMOs were
investment grade.

OTS Actions Were Not Consistent With Waterfield Bank’s Risk Profile

In the OTS limited examination mailed on January 30, 2008, OTS upgraded
Waterfield Bank’s CAMELS composite rating to 3 from 4, which was
inconsistent with the institution’s risk profile and unproven high-risk business
plan. As discussed earlier, Waterfield Bank had a high-cost operating
structure, poor asset quality, and a high-risk business plan implemented by a
new management team. When we asked OTS personnel about the basis for
their CAMELS upgrade, they cited the equity infusion of $20 million by
Affinity and the new management team.

OTS upgraded the CAMELS composite and component ratings from
4/445543 to 3/232332. The basis for OTS’s upgrade was the equity infusion
of $20 million, $8.5 million of which was borrowed by Affinity, which resulted
in Waterfield Bank becoming well capitalized with a core capital ratio of
15.35 percent and a total risk-based capital ratio of 26.95 percent; the
reduction in the percent of problem assets to equity as a result of the equity
infusion of $20 million; the new business plan; and OTS’s knowledge of the
experience and capabilities of the new management team.

Waterfield Bank’s first quarter net income was not consistent with the
business plan. The institution posted a net loss of $1.8 million for the first
quarter of 2008, compared to the business plan’s projection of net income of
$300,000. In addition, nonperforming loans to total loans increased from
1.66 percent at December 31, 2007, to 2.49 percent at March 31, 2008.

This rating change was inconsistent with Waterfield Bank’s unproven, high-
risk business plan, continued losses, and poor asset quality.

OTS Did Not Timely Address Waterfield Bank’s Purchase Accounting
Issues

During the December 2008 examination, OTS identified that the purchase
accounting adjustments had not been recorded in accordance with generally
accepted accounting principles (GAAP). At December 31, 2008, Waterfield
Bank’s tier 1 capital was only $370,000 above the well capitalized minimum.
To the extent that even small portions of the fair value purchase accounting
adjustments were disallowed, a restated December 31, 2008, TFR would
have likely indicated that the institution was not well capitalized, as reported.

In-Depth Review of Waterfield Bank                                     Page 12
                           The ROE for the December 2008 examination, mailed July 30, 2009,
                           included OTS’s first corrective action to address Waterfield Bank’s late
                           recording of the purchase accounting adjustments. OTS stated in the ROE
                           that management should work with the institution’s independent auditors to
                           ensure that upon completion of their audit, the audit work papers related to
                           the review of purchase accounting entries were submitted to OTS’s regional
                           accountant for review. However, OTS’s corrective actions were not issued
                           timely, nor were they complied with by Waterfield Bank. It was more than 18
                           months from the acquisition’s completion on January 16, 2008, until the first
                           OTS corrective action was issued in the ROE mailed July 30, 2009, and it
                           was not until December 2009 that the final purchase accounting entries were
                           recorded.

                           We believe that more timely and greater supervisory action prior to the ROE
                           mailed July 30, 2009, was warranted to address the institution’s failure to
                           properly record the purchase accounting adjustments, including requiring
                           Waterfield Bank to take the necessary steps to determine the purchase
                           accounting entries and record them within the 12-month required timeframe
                           under GAAP.

                           OTS Did Not Take Supervisory Action Against Waterfield Bank in a
                           Timely Manner

                           OTS did not complete all of its examinations of Waterfield Bank and take
                           regulatory action in a timely manner.

                           OTS’s 2007 and 2008 full-scope examinations took significantly longer than
                           the typical examination of a similar-sized institution. The 2007 examination
                           spanned 160 days until transmitted, and the 2008 examination spanned 234
                           days until transmitted. Based on discussions with OTS personnel, during the
                           2008 examination OTS field personnel were assigned to internal failed bank
                           reviews for other OTS regions. Based on discussions with OTS personnel,
                           this practice is no longer followed because the OTS Quality Control
                           department is sufficiently staffed to perform internal failed bank reviews.
                           OTS examiners stated that enforcement action was taken within an
                           appropriate amount of time after mailing of the December 2008 ROE;
                           however, OTS personnel acknowledged that the time between
                           commencement of the examination and the mailing of the ROE was longer
                           than normal. Assigning field personnel to internal failed bank reviews
                           contributed to the untimely completion of the examination.

                           During 2007, while Waterfield Bank was operating under the name of
                           American Partners Bank, it was classified as undercapitalized for the first
                           three quarters of 2007 and was classified as significantly undercapitalized at
                           December 31, 2007. However, the institution only received a PCA directive
                           dated August 24, 2007. Based on OTS’s May 2007 examination, the
                           institution was to receive a cease and desist order; 6 however, the order was

6 Section 080 of the OTS examination handbook states that “a cease and desist order normally requires the association

to correct any violation of law, regulation, or an unsafe or unsound practice. OTS may issue a cease and desist order in
                           In-Depth Review of Waterfield Bank                                                 Page 13
                            never issued. OTS did not issue the cease and desist order due to the
                            expected capital infusion by Affinity and its potential impact on the
                            completion of the transaction. Based on discussions with OTS personnel,
                            they were concerned that a cease and desist order could jeopardize the
                            pending acquisition. The OTS Regional Enforcement Counsel indicated their
                            practice has changed to no longer hold a cease and desist order due to a
                            pending transaction.

                            OTS Did Not Perform a Thorough Evaluation of the Acquisition by
                            Affinity

                            Waterfield Bank’s original business plan dated February 2007 called for
                            rapid asset growth, with projected assets growing from $155 million at
                            acquisition (January 2008) to $2.2 billion by the end of year three. The
                            growth was to be supported by a capital infusion of $75 million; ongoing
                            capital infusions from Affinity by reinvesting earnings from its wholly owned
                            subsidiaries, WFS and WTI; and WFS providing deposits as the primary
                            funding source. Affinity submitted a revised business plan in November 2007
                            but still focused on rapid asset growth, with projected assets growing from
                            $172 million at acquisition to $1.2 billion by the end of year three. The capital
                            infusion was $20 million, with $8.5 million borrowed by Affinity through a
                            bridge loan. Payment of the bridge loan was to come from the sale of
                            additional stock, which ultimately never occurred, nor did the additional
                            capital infusions from Affinity. The approved business plan also projected net
                            income of $300,000 for the first quarter after acquisition and $4.1 million for
                            the first year, increasing to $15.3 million for year three. OTS approved the
                            acquisition and business plan on January 7, 2008.

                            We believe that OTS did not perform an adequate review of Affinity’s
                            financial condition prior to acquiring American Partners Bank. At the time of
                            acquisition, Affinity had an accumulated deficit of more than $1 million and
                            total assets of $4.8 million. For the years ended December 31, 2007, 2006,
                            and 2005, Affinity recorded net losses of $4 million, $10.7 million, and $1.7
                            million, respectively. In our opinion, OTS should have made further inquiries
                            regarding Affinity’s ability to service the $8.5 million debt and infuse
                            additional capital, given its financial condition and history. Based on
                            discussions with OTS personnel, a $20 million capital infusion was
                            determined a better solution than imminent failure of American Partners
                            Bank, even with a portion financed.

                            Waterfield Bank’s business plan also included a high reliance on brokered
                            deposits as the main funding source for growth and liquidity. WFS gathered
                            deposits through affinity group websites; by mail, wire, ATM, and UPS
                            stores; or direct transfer from a partner bank. Once received, Affinity would
                            place the deposits at a partner bank for a negotiated spread plus processing

response to violations of federal banking, securities, or other laws by associations or individuals, or if it believes that an
unsafe and unsound practice or violation is about to occur. OTS authority for issuing cease and desist orders is the
Federal Deposit Insurance Act. OTS may issue a cease and desist order if one of the following factors is present: (1) an
unsafe or unsound practice; (2) a violation of law, rule, or regulation; or (3) a violation of any condition imposed in writing
in connection with the granting of an application, or any written agreement with OTS.”
                            In-Depth Review of Waterfield Bank                                                      Page 14
                           fees. Through intra-agency communications, OTS first acknowledged in
                           December 2006 that the FDIC considers the type of deposit arrangements
                           that were proposed in the Affinity business plan to be brokered deposits. The
                           initial business plan called for the transfer of approximately $650 million of
                           these affinity deposits into Waterfield Bank, and there was no
                           acknowledgement that the deposits were considered to be brokered
                           deposits. OTS did not rule on the brokered deposit issue until brokered
                           deposit restrictions were placed on Waterfield Bank on July 2, 2009, after
                           which the FDIC ultimately concluded on October 30, 2009, that the deposits
                           were brokered deposits. Based on discussions with OTS personnel, they
                           acknowledged the brokered deposits issue should have been addressed
                           sooner. Although an institution is allowed to have brokered deposits when it
                           is well capitalized, OTS personnel noted that the economic conditions in
                           January 2008 (date of acquisition) were symptomatic of issues that could
                           lead to brokered deposit restrictions.

                           The reliance on this type of funding source was a significant change in
                           business operations for American Partners Bank. Historically, American
                           Partners Bank never used brokered deposits as a primary funding source
                           prior to the merger. Rather, it used short-term borrowings to fund a
                           wholesale mortgage banking operation with limited core deposits. The
                           deposit-gathering portion of the Affinity business plan was a significant
                           change in operations for the institution, which was not structured to sustain
                           the high overhead costs associated with this operational change. 7 Given the
                           significant change in both management control and operations of the
                           institution, we believe OTS should have conducted an eligibility examination
                           to properly assess the inherent risks of the brokered deposits, coupled with
                           the mortgage banking operations. Based on discussions with OTS
                           personnel, the determination of whether an eligibility examination is required
                           is a matter of judgment. OTS personnel identified that there were certain
                           matters in the business plan and in the financial condition of Affinity that
                           would support an eligibility examination.

                           Subsequent to the merger, OTS did not monitor the operations of Waterfield
                           Bank as compared to the approved business plan. Condition 5 of the OTS
                           approval letter dated January 7, 2008, required during the term of the
                           business plan that Waterfield Bank submit to OTS, within 45 calendar days
                           after the end of each calendar quarter, a business plan variance report
                           detailing the institution’s compliance with the business plan and an
                           explanation of any deviations. OTS noted in its ROE for the December 2008
                           examination (issued in July 2009) that Waterfield Bank had not been
                           submitting quarterly business plan variance reports to OTS. During this time,
                           Waterfield Bank’s actual results were vastly different from the approved
                           business plan. As stated above, the business plan called for an increase in
                           assets from $172 million at acquisition to $520 million after year one
                           (December 31, 2008), while the institution’s actual assets were $287 million


7 Section 060 of the OTS Examination Handbook states that “OTS will perform an eligibility examination in cases where
the application involves an existing company or line of business that is to be converted to, to be combined with, or will
otherwise materially alter or affect the operations of a savings association.”
                           In-Depth Review of Waterfield Bank                                                  Page 15
at December 31, 2008. The business plan also called for net income of
$300,000 for the first quarter after acquisition and $4.1 million for the year.
For 2008, the institution posted quarterly losses of $1.8 million for the first
quarter, $1.3 million for the second quarter, $1.2 million for the third quarter,
and $1.3 million for the fourth quarter, for a combined loss for the year of
$5.6 million. Had OTS received and reviewed the required quarterly
business plan variance reports, it may have been able to identify Waterfield
Bank’s problems sooner. There was no indication that quarterly business
plan variance reports were requested by OTS between safety and
soundness examinations.

OTS Implemented Prompt Corrective Action In Accordance With
Requirements

The purpose of PCA is to resolve the problems of insured depository
institutions at the least possible long-term loss to the Deposit Insurance
Fund. According to PCA requirements, federal banking agencies are to take
certain actions when an institution’s capital drops to certain levels. Under
PCA, regulators also have flexibility to require corrective action by
institutions based on criteria other than capital levels to help reduce deposit
insurance losses caused by unsafe and unsound practices.

We concluded that OTS used its authority under PCA in accordance with
PCA requirements. At December 31, 2006, American Partners Bank
dropped from well capitalized to adequately capitalized. On August 7, 2007,
American Partners Bank filed an amended March 31, 2007, TFR, which
dropped the institution from adequately capitalized to undercapitalized. OTS
notified American Partners Bank of its undercapitalized status and that it was
considered to be in troubled condition through a troubled condition letter
dated August 24, 2007.

At December 31, 2007, American Partners Bank dropped from
undercapitalized to significantly undercapitalized. OTS notified American
Partners Bank of its lower capital status in a Notice of Intent to Issue Prompt
Corrective Action Directive with Notice of Conditional Approval of Capital
Restoration Plan letter dated January 8, 2008. The acquisition of American
Partners Bank by Affinity was consummated on January 16, 2008, and the
name American Partners Bank was changed to Waterfield Bank.

At June 30, 2009, Waterfield Bank dropped from well capitalized to
adequately capitalized. Additionally, OTS downgraded the institution’s
CAMELS composite rating from a 3 to 4 in its July 30, 2009, ROE for the
December 2008 examination. OTS also notified Waterfield Bank of its
troubled condition in a letter dated July 30, 2009.

The troubled condition letter informed Waterfield Bank of the restrictions
associated with its capital level decline and troubled condition status, which
included (1) a growth restriction; (2) a requirement for notice of a change of
director or senior executive officer; (3) restrictions on golden parachute
payments; (4) restrictions on contracts, compensation, or benefits;

In-Depth Review of Waterfield Bank                                      Page 16
(5) restrictions on certain third-party contracts; (6) restrictions on dividends;
(7) no expedited treatment for applications and notices filed with OTS; and
(8) a brokered deposits restriction and a requirement to develop a written
plan to reduce reliance on brokered deposits. The troubled condition
restrictions were consistent with PCA and OTS guidance, given the PCA
status and conditions of the thrift.

OTS issued a cease and desist order on October 1, 2009. The cease and
desist order provided for restrictions and requirements related to capital
liquidity, brokered deposits, credit administrations, interest rate risk,
business plans, asset quality, financial reporting, policies and procedures,
compliance, investment management, compensation arrangements,
transactions with affiliates, and management changes.

At December 31, 2009, Waterfield Bank dropped from significantly
undercapitalized to critically undercapitalized. OTS notified Waterfield Bank
of its lower capital status in a Notification of Critically Undercapitalized
Status and Notice of Intent to Issue Prompt Corrective Action Directive With
Notice of Disapproval of Capital Restoration Plan letter dated January 26,
2010. On February 4, 2010, Waterfield Bank consented to the appointment
of a conservator or receiver by OTS. On May 5, 2010, OTS closed
Waterfield Bank and appointed the FDIC as receiver.




In-Depth Review of Waterfield Bank                                       Page 17
OTS Failed Thrift Institutions Review
              OTS policy requires that an internal assessment be conducted when a thrift
              fails. That assessment, referred to as a failed thrift institutions review, is
              performed by staff independent of the region responsible for supervisory
              oversight of the failed thrift. The report is reviewed and signed by OTS’s
              deputy director of examinations, supervision, and consumer protection. Staff
              from OTS’s Western Region performed an internal review of Waterfield
              Bank following its failure in March 2010. The scope of the review focused
              primarily on OTS’s supervision from Affinity’s application to acquire
              Waterfield Bank in 2007 through the failure in March 2010.

              OTS’s review determined that Waterfield Bank’s failure was caused by
              significant concentrations of non-agency collateralized mortgage obligations
              that incurred considerable deterioration in value, which directly contributed to
              Waterfield Bank’s negative capital position. The internal failed bank review
              also concluded that Waterfield Bank incurred heavy general and
              administrative expenses building an infrastructure to support projected
              growth, and that Waterfield Bank’s capital position deteriorated due to
              quarterly net losses. Furthermore, the internal failed bank review determined
              that purchase accounting adjustments from Affinity’s acquisition of
              Waterfield Bank initially overvalued the acquired loans by approximately $5
              million, necessitating a decrease in equity capital.

              The OTS internal failed bank review identified weaknesses in supervision.
              The internal failed bank review found that OTS should have completed an
              eligibility examination, which would have disclosed information that OTS
              could have benefited from to more effectively regulate Affinity and
              Waterfield Bank. The internal failed bank review also found that, due to
              the unique nature of Affinity’s activities and the affiliated transactions, the
              supervisory process should have included documented analysis and
              evaluation of the deposit-gathering process prior to or shortly after the
              change in control. The internal failed bank review also noted that there
              was no evidence that OTS monitored or tracked compliance with the
              condition for acquisition approval related to the business plan variance
              reports until such compliance was reviewed in conjunction with the
              December 8, 2008, examination.

              The OTS report made the following recommendations:

                  •    OTS should require that eligibility examinations be conducted for
                       all potential savings and loan holding companies when an active
                       organization proposes to charter a new thrift institution or acquire
                       control of an existing one.




              In-Depth Review of Waterfield Bank                                    Page 18
    •    Unique material strategies, including material transactions with
         affiliate activities that could affect an institution, need to be
         analyzed and documented prior to the approval of an application to
         charter or acquire control of a savings institution. In those
         situations, the application approval digest should document any
         material risks foreseen in the proposed transaction and set forth
         supervisory strategies to monitor and control material and/or
         unique risks following consummation of the proposed transaction.

    •    Formal recommendations to address concentration deficiencies
         were not provided, as the deficiencies were substantially the same
         issues noted in recent 2009 and 2010 failed bank reviews and OIG
         audit reports.

Our in-depth review affirms the findings and recommendations of OTS’s
internal review.




In-Depth Review of Waterfield Bank                                Page 19
Recommendations
           As a result of our in-depth review of Waterfield Bank, we recommend that
           the Director of OTS do the following:

           1.       Appropriately curtail high-risk business strategies employed by
                    insured institutions through appropriate formal supervisory
                    enforcement actions.

           2.       Perform a more thorough evaluation of the financial condition and
                    business plans of prospective acquirers and follow all protocol for
                    monitoring of the execution of the business plans.

           3.       Ensure that thrifts comply with conditions stated in approval
                    documents on an ongoing basis and ensure that a prompt follow-up
                    is performed if required submissions, such as business plan variance
                    reports, are not timely received. Additionally, OTS staff should be
                    directed to review such submissions in a timely manner and take
                    appropriate supervisory action when deviations or other problems are
                    identified.

           4.       Ensure that supervision of thrifts is not adversely impacted by the
                    assignment of personnel to internal failed bank reviews.


           Management Response

           OTS responded that they acknowledge and concur with conclusions and
           recommendations.

           Moss Adams LLP Comment

           The implementation of the recommendations is the responsibility of OTS
           management.




           In-Depth Review of Waterfield Bank                                     Page 20
                          Appendix 1
                          Objectives, Scope, and Methodology



                          We performed an in-depth review of the failure of Waterfield Bank under a
                          contract with the Department of the Treasury Office of Inspector General
                          (OIG). Our objectives were to determine the causes of Waterfield Bank’s
                          failure and assess its supervision by OTS.

                          We conducted this in-depth review of Waterfield Bank in response to Section
                          38(k) of the Federal Deposit Insurance Act. This section provides that if the
                          inspector general for the appropriate federal banking agency determines an
                          in-depth review of a nonmaterial loss to the Deposit Insurance Fund is
                          warranted, the inspector general is to prepare a report to the agency that

                          •    ascertains why the institution’s problems resulted in a loss to the Deposit
                               Insurance Fund;
                          •    reviews the agency’s supervision of the institution, including its
                               implementation of the PCA provisions of Section 38; and
                          •    makes recommendations for preventing any such loss in the future. 8


                          To accomplish our review, we conducted fieldwork at OTS’s regional office
                          in Atlanta, Georgia, and at the FDIC’s Division of Resolutions and
                          Receiverships (DRR) office located in Irvine, California. We also interviewed
                          officials of OTS and the FDIC’s Division of Supervision and Consumer
                          Protection. As part of this in-depth review, the OIG conducted the interview
                          of FDIC DRR personnel and provided us summary information regarding
                          their review. We conducted our fieldwork during June 2010.

                          To assess the adequacy of OTS’s supervision of Waterfield Bank, we
                          determined (1) when OTS first identified the institution’s safety and
                          soundness problems, (2) the gravity of the problems, and (3) the supervisory
                          response OTS took to get the institution to correct the problems. We also
                          assessed whether OTS (1) might have discovered problems earlier;
                          (2) identified and reported all the problems; and (3) issued comprehensive,
                          timely, and effective enforcement actions that dealt with any unsafe or
                          unsound activities. Specifically, we performed the following work:

                               •   Based on our reviews of the ROE and discussions with OTS, we
                                   determined that the period covered by our audit would be from
                                   January 1, 2005, through 2009. This period included four full-scope
                                   safety and soundness examinations and four limited-scope

8
  When Waterfield Bank failed, Section 38(k) defined a loss to the Deposit Insurance Fund as material if it exceeds the
greater of $25 million or 2 percent of the institution’s total assets. Amended by the enactment of the Dodd-Frank Wall
Street Reform and Consumer Protection Act, effective July 21, 2010, Section 38(k) defines a material loss as any loss in
excess of $200 million for calendar years 2010 and 2011, $150 million for calendar years 2012 and 2013, and $50 million
for calendar years 2014 and thereafter (with a provision that the threshold can be raised temporarily to $75 million if
certain conditions are met). The FDIC’s estimated loss for Waterfield Bank at the time of its failure on March 5, 2010,
was $51 million, and the Treasury OIG contracted with our firm to perform a material loss review. Although a material
loss review of Waterfield Bank was no longer required under the Dodd-Frank amendment to Section 38(k), the Treasury
OIG determined that our performance audit should continue as an in-depth review.
                          In-Depth Review of Waterfield Bank                                                 Page 21
Appendix 1
Objectives, Scope, and Methodology



         examinations.

    •    We reviewed OTS’s supervisory files and records for Waterfield Bank
         from 2005 through February 2010. We analyzed examination reports,
         supporting work papers, and related supervisory and enforcement
         correspondence. We performed these analyses to gain an
         understanding of the problems identified, the approach and
         methodology OTS used to assess the institution’s condition, and the
         regulatory action used by OTS to compel the institution’s
         management to address deficient conditions. We did not conduct an
         independent or separate detailed review of the external auditor’s
         work or associated work papers.

    •    We interviewed and discussed various aspects of the supervision of
         the institution with OTS officials and examiners to obtain their
         perspectives on the institution’s condition and the scope of the
         examinations. We also interviewed FDIC officials who were
         responsible for monitoring Waterfield Bank for federal deposit
         insurance purposes. The OIG auditor interviewed FDIC DRR officials
         and reviewed their investigative report, and then informed us of any
         information obtained from the interview that was considered pertinent
         to the review.

    •    We selectively reviewed Waterfield Bank’s documents that had been
         taken by the FDIC and inventoried by FDIC DRR personnel. We
         identified from the FDIC’s inventory list those documents for our
         review that were most likely to shed light on the reasons for the
         institution’s failure and OTS’s supervision of the institution.

    •    We assessed OTS’s actions based on its internal guidance and the
         requirements of the Federal Deposit Insurance Act, as amended by
         12 U.S.C. Section 1820(d).

    •    In accordance with its policy, OTS conducted an internal failed bank
         review of Waterfield Bank. Our in-depth review affirmed OTS’s
         internal findings and the need for corrective action.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.




In-Depth Review of Waterfield Bank                                   Page 22
                           Appendix 2
                           Background



                           Waterfield Bank’s History

                           Since the institution’s inception in 2000, Waterfield Bank has changed
                           ownership three times. Initially, it opened on June 12, 2000, as Assurance
                           Partners Bank, a federally chartered de novo thrift in Carmel, Indiana. The
                           institution was organized by the National Association of Mutual Insurance
                           Companies (NAMIC), a national trade association of property and casualty
                           insurance companies, headquartered in Indianapolis, Indiana, that controlled
                           the institution as its top-tier holding company. The original business strategy
                           of marketing loan and deposit products through insurance agencies proved
                           unsuccessful, as the NAMIC group of companies never supported the
                           institution as anticipated. As a result, the institution was unable to achieve its
                           growth projections and operate profitably.

                           On April 8, 2005, Federal City Bancorp, Inc. acquired a controlling interest in
                           the institution via a private placement. The headquarters were relocated to
                           Bethesda, Maryland, and the name was changed to American Partners
                           Bank. Federal City Bancorp, Inc. was a shell corporation with American
                           Partners Bank as its sole wholly owned subsidiary; no entity or individual
                           owned more than 10% of the holding company’s common stock. While the
                           revised business plan of the institution retained some elements of the
                           predecessor’s business plan (maintaining loan and deposit relationships with
                           NAMIC-related entities and the branch in Carmel), it focused on building a
                           diversified lending and retail banking presence in the Washington, DC,
                           metropolitan area to be supplemented with a retail mortgage banking
                           operation. The revised business plan projected rapid balance sheet growth
                           and large operating losses to be supported by a subsequent capital infusion
                           of $10 million. However, management abandoned the business strategy in
                           mid-2006, once the capital infusion did not materialize, and turned the
                           institution into a wholesale mortgage banking company with loans originated
                           primarily from new offices in New Jersey and Florida. Management used
                           short-term lines of credit to fund the growth, given the lack of a retail
                           branching network (there was only one branch office) and the inability to
                           borrow funds from the Federal Home Loan Bank (FHLB).

                           There was significant turnover in executive management: the former
                           managing officer resigned in mid-2006 and his replacement resigned soon
                           after. Two senior officers were elevated to co-chief executive officers (CEO)
                           under the direction of the chairman, who did not reside in the area. Many of
                           the directors did not live in the area; consequently, board meetings were
                           often held by conference call. The establishment of the wholesale lending
                           operation was a major deviation from the OTS-approved business plan. In
                           December 2006, the institution entered into an Early Purchase Program
                           (EPP) 9 warehouse funding arrangement with Countrywide. Management

9
 The EPP functions as a warehouse line of credit, but an attempt was made to structure the relationship in a way that
would allow Waterfield Bank to treat the loans being funded by the EPP as being sold to Countrywide at the time of initial
funding, as opposed to being financed by Countrywide. Initial funding for each loan takes place within a few days of the
loan closing, but long before Countrywide has reviewed and accepted the loan for purchase.
                           In-Depth Review of Waterfield Bank                                                  Page 23
                          Appendix 2
                          Background



                          improperly accounted for these EPP loans as sales, rather than placing them
                          on the balance sheet for the period they were funded under the EPP. While
                          credit quality was generally satisfactory, approximately 37 percent of the
                          production was in nontraditional mortgage products that did not comply with
                          the Interagency Guidance on Nontraditional Mortgage Product Risks
                          (September 26, 2006) 10 . In January 2007, faced with a significant capital
                          and liquidity crisis in trying to manage the mortgage banking business, the
                          institution signed a merger agreement with Affinity.

                          Affinity was formed in 1997 and controlled by the Waterfield family. Since
                          1999, Affinity has provided private label financial products and services to
                          affinity groups, employers, and financial institutions. Products and services
                          offered by Affinity focused on raising bank deposits through WFS, a wholly
                          owned subsidiary of Affinity. Most of the affinity relationships were based on
                          exclusive, multi-year contracts. WFS also operated two proprietary websites
                          that gathered deposits nationally and then placed them at client banks. WFS
                          acted as agent and servicer of the accounts (Waterfield Bank performed
                          deposit servicing) pursuant to agreements with each bank, which allowed
                          WFS to decide where the deposits were placed and to negotiate the rate.
                          The primary deposit products offered by WFS were savings, money market,
                          certificate of deposit, and checking accounts.

                          On January 16, 2008, Affinity acquired Federal City Bancorp, Inc. and
                          infused $20 million in American Partners Bank. The institution’s name was
                          changed to Waterfield Bank and a new board of directors and management
                          team were installed. In addition to the headquarters in Maryland; the branch
                          office in Maryland; the back office operations in Indiana; and remote loan
                          production offices in Maryland, New Jersey, and Florida, Waterfield Bank
                          also moved its primary administrative offices to California. On May 30, 2008,
                          OTS approved an application to establish a retail branch office in California,
                          which never opened. Attempting to maintain a nationwide footprint continued
                          to strain financial and management resources.

                          The initial acquisition strategy proposed a capital infusion of $75 million and
                          an aggressive growth strategy. However, Affinity could only raise $20 million
                          in capital, of which $8.5 million was borrowed. Although the lower capital
                          infusion caused the business plan to be revised, expansion plans continued
                          escalating costs beyond levels supportable by income. Asset growth was
                          funded mainly through the use of WFS’s managed deposits, which
                          supported the mortgage banking operations and funded investments in AAA-
                          rated non-agency CMOs. After one year of operations, Waterfield Bank
                          remained unprofitable, with capital minimally above the well capitalized
                          threshold. Management’s ability to restructure operations was limited, given

10
   The interagency guidance provides information related to managing the risks associated with nontraditional mortgage
loans. Nontraditional mortgage loans are closed-end residential mortgage loan products that allow borrowers to defer
repayment of principal and, sometimes, interest, and include such products as “interest-only” mortgages for which a
borrower pays no loan principal for the first few years of the loan, and “payment option” adjustable-rate mortgages
(ARMs) for which a borrower has flexible payment options with the potential for negative amortization.
                          In-Depth Review of Waterfield Bank                                                Page 24
Appendix 2
Background



the significant amount of non-agency CMOs purchased subsequent to the
acquisition that were illiquid and impaired. Classified assets were primarily
secured by residential properties and included a high level of mortgage
banking originations rejected by investors and, to a lesser extent, loans to
insurance company agents. While continuing to pursue a capital infusion
from outside sources, management adjusted its focus toward shrinking the
balance sheet of Waterfield Bank and reducing expenses.

Management tried to reduce expenses in 2009 with the closure of the
operations center in Carmel, Indiana, and termination of the wholesale
mortgage operation, but to no avail. Waterfield Bank failed on March 5,
2010, with essentially no active operating lines of business and no funding
source.

Types of Examinations Conducted by OTS

OTS conducts various types of examinations, including safety and
soundness, compliance, and information technology.

OTS conducts full-scope examinations of insured institutions once every 12
or 18 months. During a full-scope examination, examiners conduct an onsite
examination and rate all CAMELS components. OTS then assigns the
institution a CAMELS composite rating based on its assessment of the
overall condition and level of supervisory concern.

OTS uses the 12-month cycle until the institution’s management has
demonstrated its ability to operate the institution in a safe and sound manner
and has satisfied all conditions imposed at the time of its charter approval.
The 18-month examination interval applies to insured institutions that have
total assets of $500 million or less and

    •    received a CAMELS composite rating of 1 or 2 and a compliance
         rating of 1 or 2 for their most recent examination;
    •    received a CAMELS management component rating of 1 or 2 for
         their most recent examination;
    •    are well capitalized;
    •    are not currently subject to a formal enforcement proceeding or order
         by OTS or the FDIC; and
    •    have not undergone a change in control during the 12-month period
         since completion of the last full-scope examination.

Enforcement Actions Available to OTS

OTS performs various examinations of institutions that result in the issuance
of ROEs identifying areas of concern. OTS uses informal and formal
enforcement actions to address violations of laws and regulations and to
address unsafe and unsound practices.


In-Depth Review of Waterfield Bank                                    Page 25
Appendix 2
Background



Informal Enforcement Actions

When an institution’s overall condition is sound, but it is necessary to obtain
written commitments from an institution’s board of directors or management
to ensure that it will correct identified problems and weaknesses, OTS may
use informal enforcement actions. OTS commonly uses informal actions for
problems in well or adequately capitalized institutions and institutions with a
composite rating of 1, 2, or 3.

Informal actions notify an institution’s board and management that OTS has
identified problems that warrant attention. A record of informal action is
beneficial in case formal action is necessary later.

If an institution violates or refuses to comply with an informal action, OTS
cannot enforce compliance in federal court or assess civil money penalties
for noncompliance. However, OTS may initiate more severe enforcement
action against a noncompliant institution. The effectiveness of informal
action depends, in part, on the willingness and ability of an institution to
correct deficiencies that OTS notes.

Informal enforcement actions include supervisory directives, memoranda of
understanding, and board resolutions.

Formal Enforcement Actions

If informal tools do not resolve a problem that has been identified, OTS is to
use formal enforcement tools.

Formal enforcement actions are enforceable under the Federal Deposit
Insurance Act. They are appropriate when an institution has significant
problems, especially when there is a threat of harm to the institution,
depositors, or the public. OTS is to use formal enforcement actions when
informal actions are considered inadequate, ineffective, or otherwise unlikely
to secure correction of safety and soundness or compliance problems.

OTS can assess civil money penalties against institutions and individuals for
noncompliance with a formal agreement or final orders. OTS can also
request a federal court to require the institution to comply with an order.
Unlike informal actions, formal enforcement actions are public.

Formal enforcement actions include cease and desist orders, civil money
penalties, and PCA directives.




In-Depth Review of Waterfield Bank                                    Page 26
Appendix 2
Background



OTS Enforcement Guidelines

Considerations for determining whether to use informal action or formal
action include:

•   the extent of actual or potential damage, harm, or loss to the institution
    because of the action or inaction;

•   whether the institution has repeated the illegal action or unsafe or
    unsound practice;

•   the likelihood that the conduct may occur again;

•   the institution’s record for taking corrective action in the past;

•   the capability, cooperation, integrity, and commitment of the institution’s
    management, board of directors, and ownership to correct identified
    problems;

•   the effect of the illegal, unsafe, or unsound conduct on other financial
    institutions, depositors, or the public;

•   the examination rating of the institution;

•   whether the institution’s condition is improving or deteriorating; and

•   the presence of unique circumstances.

OTS Assessments Paid by Waterfield Bank

OTS funds its operations, in part, through semiannual assessments on
savings associations. OTS determines each institution’s assessment by
adding together three components reflecting the size, condition, and
complexity of an institution. OTS computes the size component by
multiplying an institution’s total assets, as reported on its TFR, by the
applicable assessment rate. The condition component is a percentage of the
size component and is imposed on institutions that have a 3, 4, or 5
CAMELS composite rating. OTS imposes a complexity component if (1) a
thrift administers more than $1 billion in trust assets; (2) the outstanding
balance of assets fully or partially covered by recourse obligations or direct
credit substitutes exceeds $1 billion; or (3) the thrift services more than $1
billion in loans for others. OTS calculates the complexity component by
multiplying set rates by the amounts by which an association exceeds each
threshold. Figure 3 shows the assessments that Waterfield Bank paid to
OTS from 2005 through 2010.




In-Depth Review of Waterfield Bank                                       Page 27
Appendix 2
Background



Figure 3. Assessments paid by Waterfield Bank to OTS, 2005–2010.

       Billing Period                 Exam Rating             Amount Paid

 1/1/2005 - 6/30/2005                      3              $  13,502
 7/1/2005 - 12/31/2005                     3                 12,903
 1/1/2006 - 6/30/2006                      3                 17,324
 7/1/2006 - 12/31/2006                     2                 15,900
 1/1/2007 - 6/30/2007                      2                 22,966
 7/1/2007 - 12/31/2007                     2                 23,979
 1/1/2008 - 6/30/2008                      3                 33,206
 7/1/2008 - 12/31/2008                     3                 43,902
 1/1/2009 - 6/30/2009                      3                 60,678
 7/1/2009 - 12/31/2009                     4                 72,238
 1/1/2010 - 6/30/2010                      4                 63,632
 Total                                                    $ 380,230

Number of OTS Staff Hours Spent Examining Waterfield Bank

Figure 4 shows the number of OTS staff hours spent examining
Waterfield Bank from 2005 to 2009.

Figure 4: Number of OTS Hours Spent on Examining Waterfield Bank,
2005–2009.

    Examination Start                   Number of
          Date                       Examination Hours
       3/29/2005                             396
       3/20/2006                             514
       5/31/2007                           1,445
       5/31/2007                              45
       1/30/2008                               0
       6/9/2008                              100
       12/8/2008                         1,536.5
       11/23/2009                          279.5
         Total                             4,316

Source: OTS
Hours are totaled for safety and soundness examinations, limited examinations, and
compliance examinations.




In-Depth Review of Waterfield Bank                                           Page 28
                      Appendix 3
                      Glossary of Terms



Affinity deposits                     Affinity deposits are banking products offered by affinity
                                      groups under their own names. The deposits are then
                                      placed with financial institutions.

Affinity group                        An affinity group is a club, organization, or group with a
                                      common bond, such as an alumni association, a fraternal
                                      order, or a professional organization. Affinity groups can be
                                      based on a common ideology, a shared concern for a given
                                      issue, or a common activity, role, or skill. Affinity groups may
                                      have either open or closed membership.

Allowance for loan and lease          An estimate of uncollectible amounts that is used to reduce
losses                                the book value of loans and leases to the amount that is
                                      expected to be collected. It is established in recognition that
                                      some loans in the institution’s overall loan and lease portfolio
                                      will not be repaid.

Board resolution                      A document designed to address one or more specific
                                      concerns identified by OTS and adopted by a thrift’s board of
                                      directors.

Brokered deposit                      Any deposit that is obtained, directly or indirectly, from a
                                      deposit broker. The bank or thrift solicits deposits by offering
                                      rates of interest that are significantly higher than the rates
                                      offered by other insured depository institutions in its normal
                                      market area. Use of brokered deposits is limited to well
                                      capitalized insured depository institutions and, with a waiver
                                      from the FDIC, to adequately capitalized institutions.
                                      Undercapitalized institutions are not permitted to accept
                                      brokered deposits. (See 12 U.S.C. Section 1831(f) and 12
                                      C.F.R. Section 337.6.)

CAMELS                                An acronym for performance rating components for financial
                                      institutions: capital adequacy, asset quality, management,
                                      earnings, liquidity, and sensitivity to market risk. Numerical
                                      values range from 1 to 5, with 1 being the best rating and 5
                                      being the worst.

Capital restoration plan              A plan submitted to the appropriate federal banking agency
                                      by an undercapitalized insured depository institution. A
                                      capital restoration plan specifies the steps the insured
                                      depository institution is to take to become adequately
                                      capitalized, the levels of capital to be attained during each
                                      year in which the plan is in effect, how the institution is to
                                      comply with the restrictions or requirements then in effect,
                                      the types and levels of activities in which the institution is to
                                      engage, and any other information that the federal banking
                                      agency may require.

                      In-Depth Review of Waterfield Bank                                         Page 29
                       Appendix 3
                       Glossary of Terms




Cease and desist order                 A type of formal enforcement action. A cease and desist
                                       order issued by OTS normally requires a thrift to correct a
                                       violation of a law or regulation, or an unsafe or unsound
                                       practice. OTS may issue a cease and desist order in
                                       response to violations of federal banking, securities, or other
                                       laws by institutions or individuals or if it believes that an
                                       unsafe and unsound practice or violation is about to occur.

Compliance                             The part of a financial institution examination that includes
                                       an assessment of how well the institution manages
                                       compliance with consumer protection and public interest
                                       laws and regulations, including the Bank Secrecy Act.

Concentration                          As defined by the OTS, a group of similar types of assets or
                                       liabilities that, when aggregated, exceed 25 percent of a
                                       thrift’s core capital plus allowance for loan and lease losses.
                                       Concentrations may include direct, indirect, and contingent
                                       obligations or large purchases of loans from a single
                                       counterparty.

Concentration risk                     Risk in a loan portfolio that arises when a disproportionate
                                       number of an institution’s loans are concentrated in one or a
                                       small number of financial sectors, geographical areas, or
                                       borrowers.

Core capital                           Tier 1 capital consisting primarily of stockholder’s equity.

Critically undercapitalized            An insured depository institution is critically undercapitalized
                                       if it has a ratio of tangible equity to total assets that is equal
                                       to or less than 2 percent. Tangible equity is defined in 12
                                       C.F.R. Section 565.2(f).

Division of Resolutions and            A division within the FDIC that is charged with resolving
Receiverships                          failing and failed financial institutions, including ensuring that
                                       depositors have prompt access to their insured funds.

Federal Home Loan Bank                 A system of 12 regional cooperative banks created by
System                                 Congress from which member institutions borrow funds to
                                       finance housing, economic development, infrastructure, and
                                       jobs. The system provides liquidity to member institutions
                                       that hold mortgages in their portfolios and facilitates the
                                       financing of mortgages by making low-cost loans, called
                                       advances, to members. Advances with a wide variety of
                                       terms to maturity, from overnight to long-term, are available
                                       to members and are collateralized. Advances are designed
                                       to prevent any possible loss to Federal Home Loan Banks,
                                       which also have a super lien (a lien senior or superior to all

                       In-Depth Review of Waterfield Bank                                          Page 30
                     Appendix 3
                     Glossary of Terms



                                     current and future liens on a property or asset) when
                                     institutions fail. To protect their position, Federal Home Loan
                                     Banks have a claim on any of the additional eligible
                                     collateral in a failed institution. In addition, the FDIC has a
                                     regulation that reaffirms the priority of Federal Home Loan
                                     Banks, which can demand prepayment of advances when
                                     institutions fail.

Formal agreement                     A type of formal enforcement action authorized by statute.
                                     Formal agreements are generally more severe than informal
                                     actions and are disclosed to the public. Formal actions are
                                     also enforceable through the assessment of civil money
                                     penalties.

Full-scope examination               Examination activities performed during the supervisory
                                     cycle that (1) are sufficient in scope to assign or confirm an
                                     institution’s CAMELS composite and component ratings; (2)
                                     satisfy core assessment requirements; (3) result in
                                     conclusions about an institution’s risk profile; (4) include
                                     onsite supervisory activities; and (5) generally conclude with
                                     the issuance of a report of examination.

Generally accepted accounting        A widely accepted set of rules, standards, and procedures
principles                           for reporting financial information established by the
                                     Financial Accounting Standards Board.

Impairment                           Decline in fair value of a loan below the amortized cost
                                     basis.

Information technology               An examination that includes review and evaluation of the
examination                          overall management of information systems used by a thrift
                                     and of the effectiveness of the internal audit and security
                                     functions for those systems.

Non-agency collateralized            A type of financial debt vehicle that is subject to both credit
mortgage obligation                  risk and interest rate risk because it is not sponsored by a
                                     Government-Sponsored Enterprise.

                                     Legally, a CMO is a special purpose entity that is wholly
                                     separate from the institution(s) that create it. The entity is the
                                     legal owner of a set of mortgages, called a pool. Investors in
                                     a CMO buy bonds issued by the CMO, and they receive
                                     payments according to a defined set of rules. With regard to
                                     terminology, the mortgages themselves are termed collateral
                                     and the bonds are tranches (also called classes), while the
                                     structure is the set of rules that dictates how money received
                                     from the collateral will be distributed. The legal entity,
                                     collateral, and structure are collectively referred to as the

                     In-Depth Review of Waterfield Bank                                         Page 31
                      Appendix 3
                      Glossary of Terms



                                      deal.

Nonperforming loans                   Loans that are not earning income and for which (1)
                                      payment of principal and interest is no longer anticipated, (2)
                                      principal or interest is 90 days or more delinquent, or (3) the
                                      maturity date has passed and payment in full has not been
                                      made.

Prompt corrective action              A framework of supervisory actions for insured institutions
                                      that are not adequately capitalized. The framework was
                                      intended to ensure that action is taken when an institution
                                      becomes financially troubled in order to prevent a failure or
                                      minimize resulting losses. These actions become
                                      increasingly severe as an institution falls into lower capital
                                      categories. The capital categories are well capitalized,
                                      adequately capitalized, undercapitalized, significantly
                                      undercapitalized, and critically undercapitalized (See 12
                                      U.S.C. Section 1831o).

                                      The prompt corrective action minimum requirements are as
                                      follows:



              Capital               Total                     Tier 1/                   Tier 1/
              Category              Risk-Based                Risk-Based                Leverage
                                    10% or            and     6% or             and     5% or greater
              Well Capitalizeda
                                    greater                   greater
              Adequately            8% or             and     4% or             and     4% or greater
              Capitalized           greater                   greater                   (3% for 1-rated)
                                    Less              or      Less              or      Less than 4%
              Undercapitalized      than 8%                   than 4%                   (except
                                                                                        for 1-rated)
              Significantly         Less             or      Less              or       Less than 3%
              Undercapitalized      than 6%                  than 3%
              Critically            Has a ratio of tangible equity to total assets that is equal to or less
              Undercapitalized      than 2 percent. Tangible equity is defined in 12 C.F.R. Section
                                    565.2(f).
              a
                To be well capitalized, a bank also cannot be subject to a higher capital requirement
              imposed by OTS.

Risk-based capital                    The sum of Tier 1 plus Tier 2 capital.

Safety and soundness                  The part of an examination that includes a review and
                                      evaluation of each of the component CAMELS ratings (see
                                      explanation of CAMELS, above).

Tangible equity                       Total assets, minus intangible assets and total liabilities.


                      In-Depth Review of Waterfield Bank                                              Page 32
                          Appendix 3
                          Glossary of Terms



Tier 1 capital                            Common shareholder’s equity (common stock, surplus, and
                                          retained earnings), noncumulative perpetual preferred stock,
                                          and minority interests in the equity accounts of consolidated
                                          subsidiaries.

Tier 2 capital                            Subordinated debt, intermediate-term preferred stock,
                                          cumulative and long-term preferred stock, and a portion of
                                          the allowance for loan and lease losses.

Thrift financial report                   A financial report that institutions are required to file
                                          quarterly with OTS. The report includes detailed information
                                          about the institution’s operations and financial condition and
                                          must be prepared in accordance with generally accepted
                                          accounting principles. The thrift’s financial report is similar to
                                          the call report required of commercial banks.

Troubled condition                        A condition in which a thrift meets any of the following
                                          criteria: (1) OTS notifies it in writing that it has been
                                          assigned a composite CAMELS rating of 4 or 5; (2) it is
                                          subject to a capital directive, a cease and desist order, a
                                          consent order, a formal written agreement, or a prompt
                                          corrective action directive relating to its safety and
                                          soundness or financial viability; or (3) OTS informs it in
                                          writing of its troubled condition based on information
                                          available to OTS. Such information may include current
                                          financial statements and reports of examination.




                          In-Depth Review of Waterfield Bank                                         Page 33
Management Response




           In-Depth Review of Waterfield Bank   Page 34
In-Depth Review of Waterfield Bank   Page 35
    Section II

Report Distribution
Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services




In-Depth Review of Waterfield Bank                            Section II
(OIG-11-085)
